The Library of Congress
 Office of the Inspector General




              Integrated Support Services

          Increased Management Attention to
Transportation Services Can Result in Savings

                     Audit Report No. 2005-PA-101
                                       March 2006
               UNITED STATES GOVERNMENT                            LIBRARY OF CONGRESS
               Memorandum                                          Office of the Inspector General




TO:            James H. Billington                                                  March 29, 2006
               Librarian of Congress

FROM:          Karl W. Schornagel
               Inspector General

SUBJECT:       Increased Management Attention to Transportation Services Can Result in Savings
               Final Audit Report No. 2005-PA-101


This transmits our final report on Transportation Services prepared by the Office of the
Inspector General. The Executive Summary begins on page i, and complete findings and
recommendations appear on pages 4 to 7. All recommendations apply to Integrated Support
Services. Based upon responses to the draft report, we consider all recommendations
resolved.

The Integrated Support Services’ response is briefly summarized in the Executive Summary
and in more detail after individual recommendations. Their complete responses are attached
as an Appendix.

We appreciate the cooperation and courtesies extended by personnel from Integrated Support
Services during the audit.

cc: Deputy Librarian
    Director, Integrated Support Services
    Chief, Office System Services
The Library of Congress                                      Audit Report No. 2005-PA-101
Office of the Inspector General                                                March, 2006




                                  TABLE OF CONTENTS


EXECUTIVE SUMMARY.……………………………………………….…………………                                           i

INTRODUCTION……………………………………………………………………………                                              1

BACKGROUND.………………………………………………………….…………………                                              2

OBJECTIVES, SCOPE, AND METHODOLOGY………………….….…………………...                                 2

FINDINGS AND RECOMMENDATIONS…...…………………….………………………                                     4

I. Transportation Services Lacks Basic Information
   to Effectively Manage Its Operations……………………………………………………….                          4
    A. Vehicles Available for Loan and Driver Services…………………………………                    4
    B. Shuttle Service……………………………………………………………………..                                     4
    C. Commercial Vehicles……………………………………………………………....                                  5
   Recommendations..……………………………………………………………………….                                       5

II. Controls Are Needed Over the Commercial Vehicle Drivers Program…………………..           6
    Recommendation………………………………………………………………………….                                        7

APPENDIX

      Response from Integrated Support Services……………………………………………..                     8
The Library of Congress                                                     Audit Report No. 2005-PA-101
Office of the Inspector General                                                             March, 2006

                                    EXECUTIVE SUMMARY

Integrated Support Services (ISS), through its Office of Systems Services, manages the
Transportation Services Unit (Transportation Services) and the Library’s vehicle fleet, providing
regular shuttle services to the Taylor Street and Landover Center Annexes, driver services, and
delivery services of goods from the Landover warehouse to the Library’s Capitol Hill buildings. The
fleet consists of 21 vehicles: four trucks, three buses, three cargo vans, four minivans, and seven
passenger cars. Most vehicles are available to staff for official business, but only personnel with a
commercial vehicle driver’s license can operate the larger buses and trucks. The objectives of our
audit were to assess the economy and efficiency of the Library’s transportation services program, and
determine compliance with the Motor Carrier Safety Improvement Act of 1999. The audit included
an evaluation of policies, procedures, and internal controls of Transportation Services for FY 2005.

We found that Transportation Services does not consistently collect usage data, and does not analyze
the economy and efficiency of its fleet operations and lacks consistent information to do so. Based
on existing usage data, about 30 percent of the fleet that is available to employees and for driver
services is underutilized. Additional savings can be realized by reducing unneeded shuttle service.
Also, additional controls over the Library’s Commercial Vehicle Drivers Program are needed to
reduce liability exposure. Our findings and recommendations are summarized below:

Transportation Services Lacks Basic Information to Effectively Manage Its Operations―
Transportation Services does not analyze utilization of its fleet of vehicles that are available for
employee usage for official Library business and for driver services. Some of its vehicles were not
used at all during our six-month test period. Based on our analysis of available information, the
Library’s fleet could be reduced by six or possibly seven vehicles, resulting in about a 30 percent
reduction in the size of the fleet of vehicles. The proposed reduction would include three buses, one
minivan, one or possibly two cargo vans, and one passenger car. This represents a cost savings of at
least $30,000 annually and $150,000 over the next five years. In addition, efficiencies can be
achieved through centralization of Transportation Services responsibilities. ISS agreed with our
recommendations to develop or acquire a system or process to analyze its operations and centralize
all Transportation Services activities.

Transportation Services provides shuttle service to the Library’s Taylor Street and Landover Center
annexes. It runs four daily shuttles to Taylor Street and two to Landover. Our analysis of the daily
logs kept by the drivers of the shuttle service for the months of January and March 2005 disclosed
that the Taylor Street shuttle carried no passengers on 77 percent of the trips in January and 34
percent in March. The Landover shuttle carried no passengers on 78 percent of the trips in January
and 66 percent in March. Additional savings can be realized by reducing any unneeded shuttle
services. ISS agreed with our recommendation to develop or acquire a system or process to analyze
its operations.

Controls are Needed Over the Commercial Vehicle Drivers Program―The Library does not
require documentation proving that its commercial vehicle drivers have valid licenses and comply
with the Motor Carrier Safety Improvement Act of 1999. During the audit, Transportation Services
developed a form to keep track of its driver’s information, but it does not perform any verifications
of the accuracy of the information. The Library could incur unnecessary and significant liability for
drivers operating its vehicles. ISS agreed with our recommendation to develop policies and
procedures that include certifying annually that commercial drivers comply with regulations.



                                                  i
The Library of Congress                                                      Audit Report No. 2005-PA-101
Office of the Inspector General                                                              March, 2006

                                         INTRODUCTION

Transportation Services is a unit of the Office Systems Services Division of Integrated Support
Services and manages the Library’s vehicle fleet, providing regular shuttle service to Library
facilities, as well as driver and delivery services, and provides certain vehicles for Library employees
to use for official business. Transportation Services is located at the Library’s Madison Building and
vehicles are located on Capitol Hill and at the Landover Center Annex. The Library fleet consists of
21 vehicles: four trucks in excess of 26,000 pounds (three heavy duty trucks and one van body),
three buses (two 14 seat buses and one 28 seat bus), three cargo vans, four minivans, and seven
passenger cars. Transportation Services leases its vehicles from the General Services Administration
(GSA) with the exception of the Librarian’s executive sedan, which is leased from a local automobile
dealership. The Library pays GSA approximately $74,000 a year to lease its vehicles.

In accordance with Federal law, Library vehicles (cars, vans, trucks, and buses) may only be used for
official Library business. To request the use of a vehicle or the services of a Library driver,
employees must submit a Request for Motor Vehicle (Form 160) in advance for scheduling and
availability purposes. Form 160 requests information such as the requesting office and mail code,
requestor, date required and time, return date and time, destination, driver’s name, number of
passengers, type of cargo, type of vehicle required, purpose of travel, and signature of the requesting
officer. Additionally, the form cites 41 CFR 101-38.300-301.3, Official Use of Government Motor
Vehicles, for informational purposes.

The invoice manifest is the document provided to the driver of a Library vehicle by Transportation
Services before its use. The document provides the driver with information regarding authorized and
unauthorized use of Library vehicles, violations of state and local motor vehicle traffic laws,
emergency procedures, and safety tips. The invoice manifest also requests the driver to provide
information such as the driver’s permit number, name of driver, division, date, tag number, odometer
reading (out and in), destination, and time (out and in).

Only personnel holding a Commercial Drivers License (CDL) can operate the larger buses and trucks
weighing over 26,000 pounds. To obtain a CDL, personnel are required to undergo academic and
on-the-job road training, pass written and driving tests, and pass a physical examination. The Library
must comply with the Motor Carrier Safety Improvement Act of 1999. The purpose of the Act is to
(1) improve the administration of the Federal motor carrier safety program and establish the Federal
Motor Carrier Safety Administration in the Department of Transportation, and (2) reduce the number
and severity of large trucks involved in crashes through more vehicle and operator inspections and
motor carrier compliance reviews, stronger enforcement measures against violators, and effective
license testing, recordkeeping, and sanctions.

Transportation Services has eight employees. Three of the eight employees have a CDL and drive
the Library’s trucks and buses; one is the Librarian’s driver; and two handle employee requests for
vehicles for official Library business, maintain records, and account for receipts and maintenance
costs for all vehicles. Another employee handles Copyright Office pick-ups, Department of State
and Serial Record Division deliveries, and picks up overseas office shipments at the airports. The
Transportation Services supervisor also serves as a backup driver. In addition to the commercial
drivers in Transportation Services, the Library employs commercial drivers in Logistic Services and
the Collections Access, Loan and Management Division (CALM).




                                                   1
The Library of Congress                                                      Audit Report No. 2005-PA-101
Office of the Inspector General                                                              March, 2006

                                          BACKGROUND

Since 1954, GSA Fleet Services has provided vehicles and fleet management services to over 75
participating federal agencies. Growing from its origin to over 200,000 vehicles in 2005, the GSA
fleet is one of the largest non-tactical federal fleets in the U.S. Government. The GSA fleet includes
passenger cars; passenger vans; light, medium and heavy-duty trucks; buses; and ambulances.
Participating federal agencies are served on a cost reimbursement basis which makes it possible to
offer this diverse fleet at cost effective rates. GSA is not a mandatory source of supply for agencies.
Agencies can lease vehicles from commercial sources without the approval or permission of GSA.

In 1986, Congress enacted the Consolidated Omnibus Budget Reconciliation Act of 1985. This Act
requires agencies to take certain actions to improve the management and efficiency of fleets and to
reduce the cost of fleet operations. The Act also requires GSA to issue regulations to implement cost
comparison requirements and the Office of Management and Budget to monitor agency compliance.
In 1988, the General Accounting Office (GAO) looked at actions agencies took to comply with the
Act’s requirements and determined that most agencies had not conducted the required cost
comparison studies to determine the cost efficiency of their fleets. In 1991, the President’s Council
on Management Improvement established the Interagency Task Force on Fleet Management. In July
1992, the task force identified obstacles to cost efficient fleet management, including the continued
lack of compliance with the Act’s requirements.

The Commercial Motor Vehicle Safety Act of 1986 was enacted to improve highway safety by
ensuring that drivers of large trucks and buses are qualified to operate those vehicles and to remove
unsafe and unqualified drivers from the highways. The Act retained state’s rights to issue driver’s
licenses, but established minimum national standards that states must meet when licensing
commercial motor vehicle drivers.

                            OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of our audit were to assess the economy and efficiency of the Library’s Transportation
Services Program, and determine compliance with the Motor Vehicle Carrier Safety Improvement
Act of 1999. We tested controls to determine whether: (1) Transportation Services has a
methodology to determine that the Library has the appropriate number and type of vehicles, and (2)
internal controls over transportation services are adequate.

We analyzed 370 invoice manifests, which represent all requests by employees for passenger cars,
minivans, cargo vans, and driver services for the period October 1, 2004 to March 31, 2005. We
sorted the information on the invoice manifests by tag number and date to determine the percentage
of utilization for each vehicle. Transportation Services has control over the keys and access to all
vehicles with the exception of those commercial vehicles located at the Landover Annex and CALM
Division. Accordingly, there should not have been any vehicles used by employees or requests for
driver services that were not documented on an invoice manifest. However, we could not determine
total utilization because employees did not consistently provide information such as time of usage
and mileage on the invoice manifests. Accordingly, our utilization study was based on the number of
days per the invoice manifest that each vehicle was recorded as used during the test period. If a
vehicle was not used or utilization was extremely low (less than five percent of the number of days
during the test period) we recommended that Transportation Services consider eliminating it from the
fleet. Additionally, we judgmentally decided to analyze the daily logs prepared by the shuttle drivers
documenting the number of passengers per trip for the months of January and March 2005. The


                                                   2
The Library of Congress                                                       Audit Report No. 2005-PA-101
Office of the Inspector General                                                               March, 2006

shuttle drivers are required to document the number of passengers per trip for management reporting
purposes.

We selected 100 percent of the Library’s drivers of vehicles over 26,000 pounds to test for
compliance with the Motor Carrier Safety Improvement Act of 1999. We reviewed and evaluated
policies and procedures, verified that the drivers had passed the necessary tests, checked whether the
Library had a copy of the driver’s licenses on file, inquired if the Library had determined if its drivers
had good driving records, questioned if drivers notified Transportation Services of all traffic
violations, and determined whether any of its drivers had been suspended or disqualified.

We also evaluated written procedures and practices against criteria documented in Library of
Congress Regulations (LCRs), federal laws, and GAO guidance. The specific laws and regulations
included:

    •    LCR 1613, Use of Library of Congress Motor Vehicles and Other Local Transportation
         Services in Connection with Official Business, January 2003;
    •    41 C.F.R. Part 101-26.5, GSA Procurement;
    •    41 C.F.R. Part 102-34, Motor Vehicle Management;
    •    41 C.F.R. Part 101-39, Interagency Fleet Management Systems;
    •    48 C.F.R. Part 8-11, Leasing of Motor Vehicles;
    •    Commercial Motor Vehicle Safety Act of 1986;
    •    49 U.S.C., Section 101-228, Motor Carrier Safety Improvement Act of 1999; and
    •    Consolidated Omnibus Budget Reconciliation Act of 1985.

We conducted our audit in accordance with Government Auditing Standards issued by the
Comptroller General of the United States, and Library of Congress Regulation 1519-1, Audits and
Reviews by the Office of the Inspector General, October 18, 1999. Our fieldwork was performed
from March 2005 to August 2005.




                                                    3
The Library of Congress                                                        Audit Report No. 2005-PA-101
Office of the Inspector General                                                                March, 2006

                                  FINDINGS AND RECOMMENDATIONS

The Library does not have a system in place to ensure that operational information is collected and
analyzed to assess the performance and efficiency of its Transportation Services program. Policies
and procedures are needed to allow management to: (1) assess vehicle utilization (how vehicles are
used and the appropriate size and type of the fleet and to establish a baseline for fleet operations), (2)
ensure that fleet management responsibilities are centralized to provide uniform guidance and
identify cost efficient practices, and (3) protect the Library from liability due to unsafe drivers.

I.       Transportation Services Lacks Basic Information
         to Effectively Manage Its Operations

We found that Transportation Services does not have a process in place for analyzing the efficiency
of its operations and has not documented policies and procedures describing its critical processes.
Information such as mileage, destination, and time of usage was not recorded on a consistent basis by
employees using passenger cars, minivans, and cargo vans, making it difficult to determine total
vehicle utilization. Transportation Services’ shuttle services had not been reviewed to determine if
revising schedules would provide a more cost effective service. We also found that drivers of the
Library’s commercial vehicles are not required to record information regarding vehicle utilization.

          A.      Vehicles Available for Loan and Driver Services

Using the information available, we performed a utilization analysis for the first six months of FY
2005 of all documented vehicle usage. We determined that six, or possibly seven, vehicles (30
percent) of the Library’s fleet could be eliminated. The proposed reduction in the fleet is based on
the documented non-utilization of vehicles. During the six month period there was no record of the
three buses and one minivan being used at all. The car assigned to the Office of the Inspector
General’s Office of Investigation was used only 11 times over a five-month period. Transportation
Services indicated that it could provide the Office of the Inspector General’s Office of Investigations
with a vehicle if its specific vehicle was eliminated from the Library’s fleet. The utilization of the
three cargo vans was so low (4 percent for the six month period) that one or possibly two could be
eliminated. The proposed reduction in Library vehicles available for loan to employees and driver
services would represent a cost savings to the Library of approximately $30,000 annually and
$150,000 over the next five years.

         B.       Shuttle Service

Transportation Services runs four daily shuttles to Taylor Street and two to Landover. We performed
an analysis of the shuttle for the months of January and March 2005 to determine the average number
of employees per trip. The Taylor Street shuttle made 152 trips in January and 176 trips in March.
On 117 trips in January and 60 trips in March, there were no passengers. Accordingly, the shuttle
was empty 77 percent and 34 percent of the time for those respective months. For the months of
January and March, the Landover shuttle made 76 and 44 trips, respectively. There were no
passengers on 59 trips in January and 29 trips in March. Thus, the Landover shuttle was empty 78
percent and 66 percent of the time for those respective months.




                                                    4
The Library of Congress                                                                  Audit Report No. 2005-PA-101
Office of the Inspector General                                                                          March, 2006

           C.       Commercial Vehicles

We also found that some official Library employees whose responsibilities are solely to drive
Transportation Services’ commercial vehicles did not report to the Unit Head, or follow applicable
policies and procedures of Transportation Services. Specifically, vehicles belonging to
Transportation Services and used by employees at the Landover Annex and elsewhere in the Library
had no logs or records of usage. Thus, we could not determine the utilization of those vehicles. The
driver of the heavy-duty truck used by CALM reports to its respective division Chief.

Written policies and procedures would strengthen Transportation Services’ ability to effectively
manage its operations. For example, if Transportation Services ensured that information such as
mileage, destination, time of usage, and vehicle tag numbers were filled out consistently on the
invoice manifests, it could use the information to perform utilization studies and improve operations.
Utilization should be determined based on the mission of the vehicle, number of trips, hours of usage,
and mileage. Written policies and procedures could also provide guidance needed for scheduling and
preventing logistical problems. ISS management has recently mapped Transportation Services’
critical operating processes and is drafting operational procedures.

A GAO report 1 found that fleet industry officials identified certain practices that they believe are
essential to cost efficient fleet management. These practices include:

       •   Conducting utilization assessments to determine the right fleet size;
       •   Having information and supporting management information systems to enable managers to
           assess performance and make sound decisions;
       •   Comparing or benchmarking the cost and performance of a fleet with those of the best fleets;
           and
       •   Centralizing fleet management responsibilities to: (1) establish written policies, procedures,
           and other guidance, and (2) identify opportunities for improving fleet cost efficiency.

GAO’s Standards for Internal Control in the Federal Government states that management is
responsible for developing detailed policies, procedures, and practices to fit their agency’s operations
and to ensure that they are built into and become an integral part of operations.

Recommendations

ISS should:

       A. Develop or acquire a system or process that will allow it to properly analyze its operations
          and make critical management decisions.

       B. Continue to document Transportation Services’ operational and administrative policies and
          procedures. Additionally, all Transportation activities, personnel, and operations should be
          centralized and become the responsibility of Transportation Services. This would allow
          Transportation Services to identify opportunities to improve fleet cost efficiency.




1
    GAO-04-664, Federal Acquisition: Increased Attention to Vehicles Could Result in Savings, May 2004.


                                                            5
The Library of Congress                                                        Audit Report No. 2005-PA-101
Office of the Inspector General                                                                March, 2006

Management Response and OIG Comments

ISS agreed with our recommendations and is currently in the process of recruiting a Chief
Automation Officer whose initial responsibility will include researching and implementing a simple-
to-use software system to support Transportation Services activities. This system will allow ISS to
record data about vehicle and driver utilization as a basis for making informed decisions on fleet size
and composition. ISS had already identified the need to document operational and administrative
policies and procedures. During the spring of 2005, one professional ISS staff member helped Office
Systems Services (OSS) with process mapping of the Transportation Services activities. Another
staff member developed a Statement of Work and consultant agreement for a technical writer to
assist OSS in developing policies and procedures. The contract technical writer is currently
developing policies and procedures for Transportation Services.

Additionally, ISS agreed with our recommendation that Transportation Services activities and
responsibilities should be centralized for a more efficient and effective operation. ISS expressed
some concern regarding the personnel aspects of such realignment due to the Library’s Human
Resources regulations and union contract requirements.

II.       Controls Are Needed Over the Commercial Vehicle Drivers Program

Transportation Services does not require documentation to confirm that its commercial motor vehicle
drivers have (1) obtained their commercial driver’s license (CDL), (2) maintained good driving
records, and (3) notified the Library of all traffic violations and license suspensions.

Transportation Services has not developed policies and procedures to ensure its compliance with the
rules and regulations of the Motor Carrier Safety Improvement Act of 1999. During the audit,
Transportation Services developed a form to capture driver’s information, but it still does not certify
that the information provided is accurate. The supervisor of Transportation Services is currently
filling out the form. Unless Transportation Services periodically requires certification of the
information, it could unknowingly allow drivers to operate vehicles in violation of the Act. The
Library could incur significant liability if one of the drivers were involved in an accident.

The Commercial Motor Vehicle Safety Act of 1986 and the Motor Carrier Safety Improvement Act
of 1999 were created to improve highway safety by requiring that drivers of large trucks and buses
are qualified to operate those vehicles and to remove unsafe and unqualified drivers from the
highways. Employees are required to notify employers of the following:

      •   Within 30 days of a conviction of any traffic violation, a driver must notify his/her employer,
          regardless of the nature of the violation or the type of vehicle driven; and

      •   If a driver’s CDL is suspended, revoked, canceled, or if he/she is disqualified from driving,
          the employer must be notified by the end of the next business day following receipt of the
          notice of suspension, revocation, cancellation, or disqualification.

The Act also prohibits employers from using a driver that has more than one CDL or whose license
has been suspended, revoked, cancelled, or is disqualified from driving. Violation of this
requirement may result in civil or criminal penalties for the Library.




                                                     6
The Library of Congress                                                     Audit Report No. 2005-PA-101
Office of the Inspector General                                                             March, 2006

Recommendation

Transportation Services should develop policies and procedures that include having its employees
that drive commercial vehicles for the Library sign a statement annually certifying that they are, and
will notify their managers if they are not, in compliance with the rules and regulations of the Motor
Carrier Safety Improvement Act of 1999.

Management Response and OIG Comments

ISS agreed with our recommendation, and the Chief of OSS (who also serves as Acting Head of
Logistics) has already implemented this for the drivers with CDL licenses, both in the
Transportation Unit as well as in the Logistics Section.


Major Contributors to This Report:

Anita Scala, Assistant Inspector General for IT and Security Audits
Douglas C. McLeLLan, Auditor




                                                   7
The Library of Congress               Audit Report No. 2005-PA-101
Office of the Inspector General                       March, 2006

                                                    APPENDIX
                                                   (Page 1 of 2)




                                  8
The Library of Congress               Audit Report No. 2005-PA-101
Office of the Inspector General                       March, 2006



                                                    APPENDIX
                                                   (Page 2 of 2)




                                  9
